No. 20-5786
IN THE SUPREME COURT OF THE UNITED STATES
_____________________________________________________________
WILLIAM EARL SWEET,
PETITIONER
VS.
STATE OF FLORIDA,
RESPONDENT
SUPPLEMENTAL BRIEF OF PETITIONER
ON PETITION FOR WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT
PROOF OF SERVICE
I, Julie A. Morley, do swear or declare that on this date, November 17, 2020,
as required by Supreme Court Rule 29 I have served the enclosed SUPPLEMENTAL
BRIEF OF PETITIONER ON PETITION FOR WRIT OF CERTIORARI TO THE
FLORIDA SUPREME COURT WITH ATTACHMENT on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Amit Agarwal
Solicitor General
Office of the Attorney General
State of Florida
The Capitol – PL-01
Tallahassee, FL 32399-1050
amit.agarwal@myfloridalegal.com
Jeffrey Paul DeSousa
Chief Deputy Solicitor General
Office of the Attorney General
1

State of Florida
107 W Gaines Street
Tallahassee, FL 32399-6549
jeffrey.desousa@myfloridalegal.com
Evan Ezray
Deputy Solicitor General
Office of the Attorney General
State of Florida
1515 N Flagler Drive
West Palm Beach, FL 33401-3428
evan.ezray@myfloridalegal.com
Charmaine M. Millsaps
Senior Assistant Attorney General
Office of the Attorney General
400 South Monroe Street
The Capitol - PL-01
Tallahassee, FL 32399-6536
charmaine.millsaps@myfloridalegal.com; capapp@myfloridalegal.com
Jason William Rodriguez
Assistant Attorney General
Office of the Attorney General
107 West Gaines Street
Tallahassee, FL 32399-6549
jason.rodriguez@myfloridalegal.com; capapp@myfloridalegal.com

2

I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 17, 2020
/s/ Julie A. Morley
Julie A. Morley
LAW OFFICE OF THE CAPITAL COLLATERAL REGIONAL COUNSEL
MIDDLE REGION
12973 N. TELECOM PARKWAY
TEMPLE TERRACE, FLORIDA 33637
PHONE NO. (813) 558-1600
FAX NO. (813) 558-1601
Email: morley@ccmr.state.fl.us
ATTORNEY OF RECORD FOR PETITIONER

3

